                                                      National Railroad Passenger Corporation
                                                      Office of Inspector General
                                                      10 G Street, N.E.
                                                      Washington, DC 20002



                              Theft of GSA Fuel Credit Cards
                                   Case Number 08-095
                                     September 8, 2010

A source reported that several GSA fuel credit cards were stolen from Amtrak property and were
being used to make unauthorized fuel purchases. Surveillance of the gas stations where fuel
purchases were being made with the stolen credit cards, revealed that the cards were being used
by an associate of a former Amtrak Mechanic. The individual was arrested. The individual pled
guilty to one count of Theft of Government Property and was sentenced to six months home
confinement, three years probation, and was ordered to make restitution to Amtrak in the amount
of $57,424.
